CERTIFICATE OF SERVICE
I hereby certify that on this 10th day of June, 2021, I electronically filed the
foregoing with the Clerk of the Court for the United States Supreme Court. I further certify
that, as required by Sup. Ct. R. 29(3), I served one copy of the foregoing via U.S. Mail and
electronic mail upon:

Dawn M. Deitz
Assistant United States Attorney
Quentin N. Burdick U.S. Courthouse
655 First Ave N – Suite 250
Fargo, ND 58102
Dawn.deitz@usdoj.gov
/s/ Theodore T. Sandberg
Theodore T. Sandberg

